No. 21-152

 

 

In THE
Supreme Court of the United States

THE ESTATE OF MADISON JODY JENSEN,
BY HER PERSONAL REPRESENTATIVE JARED JENSEN,

Petitioner,
Vv.

KENNON TUBBS, M.D.,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,105 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 3, 2021.

Abs

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

  
